<html>
<title> - TURKEY: HUMAN RIGHTS</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



                                                             
114th Congress                                                                       Printed for the use of the
2nd Session                                                      Commission on Security and Cooperation in Europe

__________________________________________________________________________________________________________________                                    
                                    
 
                                              TURKEY: HUMAN RIGHTS

                                                  IN RETREAT

                                                           
                                        








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                               December 9, 2016
                                               
                                               
                                               
                                               
                                               
                                                Briefing of the
                                               
                                  Commission on Security and Cooperation in Europe
____________________________________________________________________________________________________________________________
                                                   Washington : 2017
                                                   
                                              
                                                   



                       Commission on Security and Cooperation in Europe
                                         234 Ford House Office Building
                                                   Washington, DC 20515
                                                           202-225-1901
                                                    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88ebfbebedc8e5e9e1e4a6e0e7fdfbeda6efe7fe">[email&#160;protected]</a>
                                                    http://www.csce.gov
                                                          @HelsinkiComm

                                       Legislative Branch Commissioners

              HOUSE                                                     SENATE
CHRISTOPHER H. SMITH, New Jersey                              ROGER WICKER, Mississippi,
          Chairman                                            Co-Chairman
ALCEE L. HASTINGS, Florida                                    BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                                   JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                                     RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                                        JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                                         TOM UDALL, New Mexico
RANDY HULTGREN, Illinois                                      SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
          New York
                       
          
            
          
          
                                   Executive Branch Commissioners
                                   
                                      DEPARTMENT OF STATE
                             ELISSA SLOTKIN,DEPARTMENT OF DEFENSE
                             ARUN M. KUMAR DEPARTMENT OF COMMERCE
          
                                            (II)
                                         



About the organization for Commission for Security and Cooperation in Europe


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.

About the for Commission for Security and Cooperation in Europe


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                (III)





                            TURKEY: HUMAN RIGHTS

                               IN RETREAT
                               
                               _________


                            December 9, 2016


                                                                                          Page
                              PARTICIPANTS

    Everett Price, Policy Advisor, Commission on Security and Cooperation in Europe ...... 1  


    Dr. Y. Alp Aslandogan, Executive Director, Alliance for Shared Values ................ 2


    Dr. Karin Karlekar, Director, Free Expression at Risk Program, PEN America ........... 6

    Dr. Nicholas Danforth, Senior Policy Advisor, Bipartisan Policy Center ............... 7


                                 APPENDIX

                               

    -*Prepared statement of Dr. Y. Alp Aslandogan ....................................... 23


                                       (IV)
                                         
                                         
                                         


                           TURKEY: HUMAN RIGHTS

                              IN RETREAT


                              ----------                              

                            DECEMBER 9, 2016




    The briefing was held at 2 p.m. in room 2255, Rayburn House Office 
Building, Washington, DC, Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe, moderating.
    Panelists present: Everett Price, Policy Advisor, Commission on 
Security and Cooperation in Europe; Dr. Y. Alp Aslandogan, Executive 
Director, Alliance for Shared Values; Dr. Karin Karlekar, Director, 
Free Expression at Risk Program, PEN America; and Dr. Nicholas 
Danforth, Senior Policy Advisor, Bipartisan Policy Center.

    Mr. Price. Good afternoon, distinguished guests and colleagues. On 
behalf of Chairman Chris Smith, I would like to welcome you to the 
Commission on Security and Cooperation in Europe's briefing on human 
rights and the rule of law in Turkey.
    My name is Everett Price, and I'm a policy advisor on the Helsinki 
Commission.
    This is a particularly timely briefing today because tomorrow is 
the International Human Rights Day where we commemorate the United 
Nations General Assembly's adoption in 1948 of the Universal 
Declaration of Human Rights.
    If it's your first time coming to an event hosted by the Helsinki 
Commission, it may be helpful for me to begin with a few words 
explaining the Commission's work. The public law establishing the 
Helsinki Commission in 1976 mandates that the Commission is authorized 
and directed to monitor the acts of the signatories of the 1975 
Helsinki Act, quote, ``with particular regard to the provisions 
relating to human rights and cooperation in humanitarian fields,'' end 
quote. This has been our mission for the past 40 years on the Helsinki 
Commission, and it serves as our motivation today as we gather to 
discuss the topic of human rights and rule of law in Turkey.
    We consider our work to be a constructive enterprise, part of the 
task of fostering positive relationships between countries. Turkey is a 
friend of the United States and a powerful NATO ally. It is central to 
the difficult work of responding to humanitarian crises in the Middle 
East and countering terrorism. But any sincere friendship requires 
candor and it is in that spirit that we wish to gain different 
perspectives on the situation in Turkey.
    In just the past couple of years, Turkey has faced security 
challenges of historic proportions. On October 10th, 2015 ISIS bombers 
killed 103 people in Ankara, marking the deadliest terrorist attack in 
modern Turkish history. This year on July 15th, a shadowy clique inside 
the government attempted to overthrow Turkey's democratically elected 
leadership, prompting common citizens to flood into the streets to 
fight and die for their freedom; 265 died in the violence.
    Additionally, since June 2015, the terrorist PKK, or Kurdish 
Workers Party, has executed a bombing campaign that has left scores 
dead across the country. Faced with such challenges, the question is 
not whether Turkey has the right to pursue justice and stability, but 
rather how that justice and stability is pursued.
    In seeking the answer to this question, we are guided by the 
central insight of the Helsinki Final Act; that is, a uniquely 
comprehensive view of security that considers human rights and the 
building of democratic institutions as key pillars of a sustainable 
regional order.
    I'm honored to introduce a distinguished panel that will help us to 
grapple with these issues and come away with a better understanding of 
what is at stake in Turkey's ongoing crackdown.
    We will begin immediately to my left with Dr. Alp Aslandogan. He is 
the executive director of the Alliance for Shared Values, a 501(c)(3) 
in the United States, that, according to its own mission statement, 
provides factual information about the Hizmet or Gulen social movement 
to educate the public about its origins and activities. As someone who 
works with Mr. Gulen, Dr. Aslandogan will offer the perspective of the 
group that has been accused by the Turkish Government of orchestrating 
the July 15th coup and that, as a result, has borne the brunt of the 
government's sweeping purges of civil servants and the seizure of 
private institutions--or closure of private institutions.
    Next we'll hear from Dr. Karin Karlekar, director of PEN's Free 
Expression at Risk program. Before joining PEN America this year, Dr. 
Karlekar worked for the past 14 years as director of Freedom House's 
Freedom of the Press project. She will offer us her expert assessment 
of freedom of expression and media freedom issues in Turkey, as well as 
academic freedom, I believe.
    Finally, we will have Dr. Nicholas Danforth, a senior policy 
advisor with the Bipartisan Policy Center. Dr. Danforth is a Turkey 
expert whose writing has been featured in publications such as The 
Atlantic, The Washington Post, Foreign Policy, Al-Jazeera and Foreign 
Affairs. He will set Turkey's human rights and rule-of-law issues in a 
broader political context and share his assessment of how the United 
States should approach such issues in a bilateral relationship.
    After the speakers provide their perspectives, I'll kick off the 
question-and-answer session before turning the mic over to the audience 
for their questions.
    Without further ado, I'll turn it over to Dr. Aslandogan.
    Dr. Aslandogan. Good afternoon. Thank you, Everett and Congressman 
Smith and the Helsinki Commission, for the opportunity to speak to you 
today about what has quickly become a human rights crisis in my country 
of birth, Turkey.
    As Everett mentioned, I am the executive director of the Alliance 
for Shared Values. We are an umbrella organization for six regional 
organizations. They promote peace, mutual respect, and dialogue among 
faiths and cultures. These are some of the core values of the so-called 
Hizmet movement--``Hizmet'' means service in Turkish--also known as the 
Gulen movement, after the Turkish scholar and social advocate Mr. 
Fethullah Gulen.
    All of you surely are familiar, if you have been watching Turkey, 
about the horrific July 15 coup attempt. It was an attack on Turkish 
democracy, and it was immediately and repeatedly condemned by my 
organization and by Mr. Gulen. This denial and condemnations did not 
stop the Turkish Government from blaming the coup attempt on Mr. Gulen, 
although they have been unable to provide any evidence that he was 
involved in any aspect of it. I'm sure the Turkish Government will 
claim, and they have claimed, that they did provide that evidence.
    But today's briefing is not about the events of July 15, it is 
about what has happened since then. Unfortunately, the attack on 
Turkey's democracy and human rights did not end when the coup attempt 
was stifled and stopped; it got worse. Turkish President Erdogan and 
his government have systematically concentrated their power over the 
courts, the media, the government bureaucracy, military, and law 
enforcement through a series of purges and persecutions of innocent 
people and government critics alike. They have seized assets from 
everyday Turks who have built businesses and lives through years of 
hard work.
    While the Hizmet movement has been the primary target of the 
Erdogan government's persecution since July, it has not been alone. 
Kurdish citizens, Alevis, journalists, teachers, some nationalists, 
even soccer referees have all been targets of Erdogan's massive 
crackdown.
    As of December 4th, more than 115,000 people have been fired from 
their jobs; 80,000 people or so have been detained; more than 37,000 
people are still in jail--they are arrested, awaiting trial; 6,000 
academics have lost their jobs; 4,000 judges and prosecutors were 
dismissed; 2,000 dormitories were shut down; 195 media outlets were 
shut down--most of these have nothing to do with Hizmet movement, by 
the way; 145 journalists arrested; 15 universities shut down; 35 
hospitals shut down or changed hands forcefully; and 7,000 doctors were 
fired. To this day, I have yet to hear an intelligent explanation as to 
how doctors and hospitals may have anything to do with the attempted 
coup. Nine Kurdish members of the Turkish Parliament were arrested in 
November. The attack has been waged on every segment of society that 
does not march in lockstep with the Erdogan government.
    We have identified 12 different categories of human rights 
violations, and we have documented these claims in a document that 
we've published and is available on our website in digital format 
called ``Perspective'' on ``The Mass Purges.'' And these have been all 
done under a declared state of emergency in which many legal rights 
have been denied. I will try to walk through these categories with some 
examples.
    The first category is inhumane detention conditions and torture. Of 
course, the ultimate violation is taking life, causing somebody's 
death, and there have been numerous reports of deaths in detention, 
over 20 deaths in detention. And I'm going to use an example: a 
relatively young teacher who died while in detention, probably 
suffering from his diabetes condition, might have been denied medical 
care. We don't know. But he died in his late 30s in detention. A 
businessman--and this is an example also--middle-aged, died in 
detention. There are more than 28 people who died in detention.
    Groups such as Amnesty International and Human Rights Watch have 
reported that those being detained are subject to the physical abuse, 
including beatings, rape and various forms of torture, being denied 
food and water, adequate space and medicine. U.N. Special Rapporteur 
Nils Melzer, speaking to a group of journalists Friday, December 2nd, 
said, and I quote: ``Torture and other forms of ill treatment seem to 
have been widespread in the days and weeks following the failed coup.''
    Our office, for example, received reports of an individual who was 
deprived of water and was forced to drink from a toilet bowl. As a 
result, he developed an infectious disease. You might try to imagine 
this yourself, under what conditions would you accept to drink from a 
toilet bowl?
    We also received reports of an individual in detention who was 
threatened with the rape of his wife. We received multiple such reports 
of people being threatened with the rape of their wives in front of 
their eyes if they didn't cooperate. We also received a report of an 
individual whose wife was raped and told his husband that he could 
divorce her because of that.
    Journalist Aysenur Parildak sent a letter from prison to Cumhuriyet 
daily reporting that, in her interrogation that took eight days, she 
was subjected to violence and sexual abuse by drunk police officers. 
BBC recently aired an on-camera testimony of a victim who was subjected 
to rape by trying to insert a police baton into his body. Thirteen 
specific examples of torture are documented in the October 24th report 
of Human Rights Watch entitled ``A Blank Check: Turkey's Post-Coup 
Suspension of Safeguards Against Torture.'' Human rights violations 
such as verbal and physical abuse are by no means limited to detention. 
They occur also outside of detention.
    The third category is violation of freedom of expression. Turkish 
authorities have waged an all-out attack on independent media. In 
addition to closing media organizations, seizing them and transferring 
them to friends or the family of the regime, the government has 
arrested many journalists simply for doing their jobs: uncovering and 
publishing hard truths. Among them there is a 72-year-old veteran, 
Nazli Ilicak, who has been charged with membership of a terror group. 
She is a Turkish liberal, not affiliated with the Hizmet movement or 
any other group. And she has devoted her life to journalism, not 
terrorism, as she was dedicated to democracy against any military 
interventions. There are many other such journalists. If I were to list 
their names I would use all the time allocated for this panel. Some 
examples are--[inaudible]--Ahmet Altan, Mehmet Altan, Sevcan Atak. 
Those pictures are available on the social media. Even some foreign 
journalists also were targeted and deported.
    The fourth category is violation of right to travel. The Turkish 
Government has canceled the passports to prevent ordinary citizens from 
leaving the country. The passport, in a famous case of Dilek Dundar, 
the wife of journalist Can Dundar, the former editor-in-chief of 
Cumhuriyet daily, was confiscated, causing the family to be separated. 
Her husband is a secular journalist, and their paper repeatedly 
criticizes--[inaudible]--so their--[inaudible]--has nothing to do with 
their relationship. And the passport of Sevgi Akarcesme, the former 
editor-in-chief of Today's Zaman, was cancelled while she was in 
Belgium, leaving her unable to travel.
    A more stunning example is of a Hizmet sympathizer family that 
attempted to travel to Cuba with their sick son, who was suffering from 
a form of cancer. They were seeking a nontraditional form of treatment 
in Cuba, and they were denied exit of the country at the port, at the 
border. And the family begged the officers to allow at least their son 
with another family member to leave the country. That was also denied.
    The fifth category is denial of lawful employment. As part of the 
purge, Turkish Government employees have been fired without any 
investigation. They are denied positions in other government agencies. 
When private companies offer them jobs, they are also followed and 
threatened. Professional licenses of 21,000 teachers have been 
canceled, and other professionals. Big numbers of people who graduated 
from Hizmet-affiliated schools have also been canceled. All of a 
sudden, they are not graduates anymore; they don't qualify for many 
jobs.
    The sixth category is defamation, humiliation and slander. As 
President Erdogan seized control over the Turkish media, either through 
acquisitions of pro-Erdogan businessmen or through self-censorship, 
media smear campaigns against foundations, companies and individuals 
have been the norm. An example of this phenomenon--again, because it's 
striking--is the targeting of singer Sila. When she refused to perform 
in a pro-government rally after the coup attempt, she was targeted with 
media smear campaigns, lost contracts, could not do her job.
    Mr. Gulen was also a primary target of the defamation and slander 
campaigns. AKP public officials were silent in public rallies where 
puppets representing Mr. Gulen were hanged and burned, and signs 
calling Gulen, in this particular example, for instance, a dog of 
Zionism--in English--and also in Arabic Abu Jahil, which is the 
archenemy of the prophet Mohammed (peace be upon him) in Islamic 
history. So this sign is being displayed in a rally in Turkey clearly 
targeting English-speaking and Arabic-speaking audiences outside of 
Turkey. And in other signs that are displayed in--[inaudible]--for 
those not familiar, they were calling Hizmet sympathizers the dogs of 
Fethullah's terrorist organization. Slander also included absolute 
lies, claims such as Gulen getting a Vatican passport--which is, of 
course, false.
    This kind of slander expanded into people. In this particular 
example, a fish seller is saying Gulen sympathizers--he's not using 
that term obviously--have no business here, they cannot do transactions 
here.
    The seventh category is denial of right to due process. And the 
eighth category is denial of right to legal defense. Lawyers accepting 
to defend Hizmet sympathizers are routinely threatened, detained, and 
their offices are raided. An example of this phenomenon is Munip Ermis, 
deputy head of the Contemporary Lawyers Association. This is not 
affiliated with Hizmet movement. They were simply democrats 
representing anybody needing help. And their offices were raided, and 
this gentleman was put under arrest.
    So let me quickly conclude with my conclusion. There are a dozen 
different categories of human rights violations. We have seen reports 
in the press by human rights watchdogs and heard through anecdotal 
stories from those facing these repressions personally in Turkey. By 
all means, the coup perpetrators must be brought to justice. They 
committed a horrible, horrible act. But the way the Erdogan government 
has reacted goes above and beyond the measure called for by law, by 
what is expected of a NATO ally, and by the standards of common human 
decency.
    I ask that each of you use the leverage you have with the members 
of Congress and with the incoming administration to keep pressure on 
the Turkish Government to stop this unending parade of abuses of 
innocent people, and to lift the state of emergency that is being used 
as an excuse to deny basic human rights and basic legal rights.
    Thank you for your time, and I look forward to your questions.
    Mr. Price. Thank you very much, Dr. Aslandogan.
    I'll turn it to you, Dr. Karlekar.
    Dr. Karlekar. Thank you so much, Everett.
    Members of the Commission and guests here today, I'm honored to be 
part of the briefing convened here today to discuss human rights and 
the rule of law in Turkey. I currently serve as the head of our Free 
Expression Advocacy Team at PEN America, an organization which has a 
long history of engaging with the challenges to freedom of expression 
both globally and at home in the United States. Over the last several 
years, and particularly since the attempted coup in July of 2016, we 
have been drawing attention to the heightened threats to free 
expression and press freedom in Turkey, as well as advocating on behalf 
of individual writers and reporters at risk.
    Turkish authorities already had a disturbing track record of 
suppressing free expression and other forms of opposition. And this 
suppression has intensified significantly over the last few months. In 
the wake of the failed coup attempt this last July, President Erdogan's 
government declared a three-month state of emergency and passed laws 
sanctioning an even harsher crackdown of press freedom and free 
expression. These aggressive violations of protected freedoms go well 
beyond justified attempts to ensure national stability and bring the 
coup planners to justice. Erdogan's government is, instead, using the 
state of emergency as an excuse to further silence any and all critical 
voices in the country.
    According to the Committee to Protect Journalists, Turkey has the 
highest number of imprisoned journalists in the world currently, 
surpassing even well-known human rights violators such as China and 
Iran. The country is rated ``not free'' by Freedom House's 2016 report 
on freedom of the press. Its use of the penal code and anti-terrorism 
laws to punish reporting has occurred on a large scale for the past 
several years, even as critical outlets and columnists have been 
defanged by changes in media ownership.
    Press freedom has deteriorated significantly following the coup 
attempt. At least 140 journalists are reportedly now in prison. These 
journalists are wrongly accused of publishing subliminal messages in 
support of the coup, or being affiliated with terrorist organizations, 
among other charges. There are credible reports of torture and ill 
treatment of those in police custody, following Turkey's derogation 
from the European Convention of Human Rights. In addition, many 
journalists have been forced to flee the country, and at least 50 have 
had their passports rescinded. And as my colleague mentioned, family 
members of prosecuted journalists may also face persecution, harassment 
and travel bans as well.
    Among those journalists imprisoned is Asli Erdogan, a well-known 
novelist, human rights activist, columnist and board member for the 
newspaper Ozgur Gundem, who was detained by Istanbul police on August 
16th on suspicion of printing propaganda for the Kurdish Worker's 
Party, which is listed as a terrorist group in Turkey. Translator 
Necmiye Alpay, a linguist, as well as prominent writer Ahmet Altan and 
the academic Mehmet Altan, his brother, also remain incarcerated--to 
name but a few--of the people currently behind bars in Turkey, many of 
whom have not faced any charges at all yet.
    On October 31st, police raided the Istanbul office of Cumhuriyet, 
Turkey's most vocal opposition paper, and detained 12 of its employees 
on suspicion of aiding terrorists. Former editor-in-chief of Cumhuriyet 
Can Dundar had previously been sentenced on charges of aiding a 
terrorist organization, espionage, and disclosure of classified 
documents. He announced in August that he had been forced to step down 
from his position and remain in exile, and that returning to Turkey 
would be similar to putting his head on the guillotine.
    Turkish academics have also faced increased persecution over the 
past few months, according to scholars at Risk Network. Criminal and 
administrative investigations were launched in January. And there's 
more than a thousand scholars, many of whom have since been suspended 
or dismissed from their positions, while others have been detained, 
arrested, or prosecuted. On July 23rd, state authorities issued a 
decree ordering the closure of 15 private universities that were 
suspected of being associated with the Gulen organization.
    Government authorities announced on September 1st that over 2,300 
academics had been dismissed for having alleged ties to the coup 
attempt. So the closure and the suppression of academic freedoms is on 
par or even greater than that of freedom of free expression. As PEN and 
other human rights organizations with whom we're working on these 
issues, we call on the United States Government to respond to this 
broad-based threat to free expression in Turkey, through regularly 
expressed concern about the situation, and urging our Turkish 
counterparts to better protect journalists, writers, and academics to 
avoid silencing and to respect their obligations under international 
law during this period of emergency.
    Maintaining financial assistance for local and international 
nongovernmental organizations who can provide financial and other forms 
of support for journalists, writers and academics at risk is very 
important during this key period. And in addition, sending direct 
official assistance, including the granting of a small number of 
humanitarian visas to those currently at imminent risk of persecution, 
would help those at grave risk.
    In the name of defending democracy, President Erdogan has 
significantly undermined two institutions--free expression and press 
freedom--that are essential to its continued existence. Turkish 
authorities must not use the state of emergency as an excuse to crack 
down on all forms of peaceful dissent. All journalists, writers and 
academics imprisoned solely for exercising their right to free 
expression must be released immediately, and opposition viewpoints 
should not be considered as terrorism.
    Thank you for your attention to this troubling trend. And we look 
forward to working with you on this issue. Thank you.
    Mr. Price. Thank you to Dr. Karlekar.
    We'll turn it to Dr. Danforth, from the Bipartisan Policy Center.
    Dr. Danforth. Good afternoon, everyone. Thank you all for coming. 
Thank you, Everett and the Commission, for inviting me.
    I'd like to begin by making two points. The first is that Turkey 
has faced very serious threats over the past few years stemming from a 
brutal insurgency led by the Kurdistan Worker's Party, or the PKK, and 
a coup attempt which most experts agree members of the Gulen 
organization played a significant if not a major role in organizing.
    This brings me to my second point--that in response to these 
threats, the Turkish Government has acted with remarkable disregard for 
the rule of law, which has caused innocent people to suffer and has 
exacerbated rather than reduced the threats that Turkey faces.
    To begin with the way the government responded to the Hizmet 
movement, what is striking is that in arresting and dismissing tens of 
thousands of alleged members of this movement, the government has been 
quite candid about the fact that it is making no effort to distinguish 
between those members which might have been aware of or participated in 
the group's illegal activities and those who did not. And I think 
perhaps the most striking evidence in this regard actually comes from a 
document that the Turkish Government itself put forward specifically to 
refute the idea that it was engaged in a witch hunt by laying out some 
of the criteria that it uses to distinguish what it called the innocent 
and the guilty.
    Among these 16 criteria we have, like number six, giving support to 
the Fethullah Gulen terrorist organization on social media; number 10, 
being subject to reliable denunciations, testimonies and confessions; 
number 11, visiting Fethullah Gulen terrorist organization-linked 
internet sites regularly. And, number 15, being mentioned in the 
information given by colleagues and friends as a member of the 
Fethullah Gulen terrorist organization.
    Now, this attempt to err on the side of caution, we'd say--this 
overzealous approach may be understandable when dealing with the 
Turkish military and intelligence organizations, groups from which the 
government continues to face a real risk. But this still overzealous 
approach has been extended to, as the previous panelists have 
discussed, civil servants, teachers--high school teachers, university 
teachers--and members of the business community.
    To put this into context, I think it's worth stepping back and 
looking historically at how this kind of disregard for the rule of law, 
this overzealous response to real threats that the government faces has 
created a vicious and destabilizing cycle throughout the last 30 years 
of Turkish history. Going back to 1980, Turkey experienced its first 
military coup, following which the military government arrested, 
tortured, engaged in extrajudicial killings of a number of people who 
were seen as enemies of the state--leftists, Islamists, predominantly 
Kurdish activists.
    In response to 20 years of behavior like this on the part of the 
Turkish military, when the AKP government came to power, they--and 
specifically members of the Gulen movement--led an effort to prosecute 
the military for a series of coup attempts that they were alleged to 
have engaged in. As this persecution went on, it became increasingly 
clear that these charges were largely fabricated and had little bearing 
to the actual crimes the military had committed. And yet, for a number 
of people watching, they were willing to go along with this persecution 
precisely because they felt that the military had done bad things in 
the past, it was finally getting its due.
    Fast forward now to the present, when the political tables have 
turned and it's now the Gulen movement that is on the receiving side of 
the government's persecution. Once again, there are a number of people 
who have been quiet in the face of the government's disregard for the 
rule of law because, again, even if they feel the specific accusations 
that are being made might be exaggerated, they feel the Gulen movement 
is getting its due.
    The risk, of course, is that as the government continues to do 
this, the cycle will simply continue and further retribution of this 
kind will become standardized in Turkey's political future. Already 
we've seen evidence of the government using the accusation of being a 
member of the Gulen organization to target leading members of Turkey's 
main political opposition party. On a more practical level, the 
government's disregard for the rule of law--the Turkish Government's 
disregard for the rule of law is also going to have serious negative 
consequences for U.S.-Turkish relations.
    The question of extraditing Fethullah Gulen is going to be one of 
the major bilateral issues between the United States and Turkey. In 
order to do this, of course, Turkey needs to provide reliable evidence 
linking Gulen himself to the coup attempt. The most reliable, plausible 
evidence for this would come from the testimony of leading participants 
in the coup. So far, Amnesty International has testified most of the 
testimony these people have given was done after being tortured. This 
would make it inadmissible in a United States court of law, undermining 
the government's extradition efforts, along with the fact that the 
United States, as signatory to the United Nations Convention Against 
Torture, cannot actually extradite someone to a country in which they 
are likely to be tortured.
    I'd made a similar set of points in regard to the Turkish 
Government's current treatment of those affiliated with the Kurdish 
nationalist movement. Once again, the government faces a real terror 
threat from the PKK. They just respond to this in a disproportionate 
and counterproductive way. Several months ago, Erdogan went on record 
as saying he sees no difference between a terrorist holding a gun or a 
bomb, and those who use their position and hand to serve the aims of 
terrorists. This ambiguity has opened the way for the government to, 
again, as Karin testified, prosecute Kurdish journalists and members of 
the country's largest Kurdish political party on the charges of 
terrorism.
    What's most troubling about this, besides the abstract rule of law 
issues that it raises, is that even those who are willing to defend 
this within Turkey on procedural grounds are still hesitant or 
unwilling to explain why these measures will prove more effective today 
than similar repressive measures have in responding to the terrorist 
threat in Turkey over the last three years. For the United States, the 
fact the Turkish Government is currently cracking down against the 
Kurdish nationalist movement in a way that is likely to further inflame 
the political tensions in Turkey is particularly important.
    The ongoing conflict between Turkey and the PKK has already proved 
a recruiting boon to ISIS in Turkey. And it also continues to present 
one of the biggest obstacles to United States efforts to defeat ISIS in 
northern Syria. Currently Washington's two closest partners in the 
fight against ISIS--Turkey and the Syrian Kurds--are more focused on 
the threat posed from one another than they are focused by the threat 
against ISIS. The fact that the Turkish-Kurdish conflict could worsen 
further raises a very real possibility of open conflict between Turkish 
and Kurdish forces in northern Syria, which would give ISIS a reprieve 
that the world can ill afford.
    In conclusion, I'd simply say that erosion of rule of law in Turkey 
has already begun transforming the country from a partner in preserving 
stability in the Middle East, into a source of instability in itself. 
If this erosion isn't reversed, the consequences for the United States 
and for the region will be severe.
    Thank you.
    Mr. Price. Thank you very much, Dr. Danforth.
    There's a lot to unpack here. I'm going to use my prerogative as 
the moderator to begin with just a couple questions to start to deal 
with them, and then we'll have the audience help us with some questions 
to dig into this a little bit more. But I thank you all for your 
perspectives.
    I want to begin a little bit with how particularly the West, the 
United States and the EU can use their positioning to try to influence 
Turkey on the topic of human rights and the rule of law. It seems to me 
there's a bit of a balancing act going on here between keeping Turkey 
at arm's length when it comes to some of these abuses of human rights 
and international standards--and that needs to happen--yet on the other 
hand not pushing them too far that they fall completely into the 
embrace of more authoritarian powers to their east.
    Do you agree with this formulation that Turkey's ambitions to join 
the EU, and this particularly under the AKP government over the past 14 
years, has been an important and salutary effect in certain regards, in 
pushing certain regards for Turkey to take? So it's an important piece 
that--not to lose but, again, balancing that with, again, being very 
clear-eyed about what's happening there on the rights and rule of law 
front. Do you agree with the way I've kind of set that up? What 
thoughts do you have about how to approach that going forward? I'll let 
any of you take that.
    Dr. Danforth. Do you want to start? To your first point, I think 
it's what's so discouraging about this situation right now, that there 
was a moment certainly when the EU process was on track, when the 
United States and Turkey had better relations, that it seemed like the 
international community did have much more leverage in promoting these 
values in Turkey. Unfortunately, that seems much less to be the case 
today.
    That said, there's still certainly things that--I won't speak to 
the international community writ large--but that the United States 
could do. I think unfortunately the tendency that the United States has 
had is to at times be very outspoken about democracy and human rights 
issues in Turkey, and then when it seems like we suddenly find 
ourselves in desperate need of Turkish cooperation, to suddenly fall 
silent on those issues.
    This inconsistent response has led people in Turkey to, somewhat 
understandably, conclude that United States commentary, concern about 
the rule of law and human rights is purely opportunistic. The response 
obviously to this is to be much more clear and consistent about what 
our standards are. I think we can be very honest about the fact that 
there are certain areas in which we are going to continue to cooperate 
with Turkey. No matter what happens, Turkey will remain a NATO member. 
The fight against ISIS will continue to be important.
    But at the same time, the United States can make it clear that it's 
not going to silence the very real concerns that we have during that 
process. There are also similar minor things that the United States can 
do to increase its leverage as part of all this. My organization, the 
Bipartisan Policy Center, has produced several reports arguing that 
reducing the United States' reliance on Incirlik Air Base would be a 
very concrete and important step. This is one of the things that in 
very real terms does often give Turkey leverage over the United States. 
Certainly, in the perception of many Turkish politicians it gives them 
leverage over the United States.
    It's a very important air base that was crucial during the Cold 
War, has been crucial during the fight against ISIS. But the United 
States does have good alternatives in Jordan, in Cyprus. Starting to 
look more seriously at some of those would make it easier for the 
United States to take the kind of honest and consistent approach that I 
think we should going forward.
    Dr. Karlekar. Just quickly--I would agree with what Nicholas said. 
I think it's been incredibly difficult, even more than for the U.S., 
for Europe. But given Turkey's role in the refugee crisis, which has 
sort of engulfed Europe, I think it's been really almost impossible for 
many of the European governments to really be critical or speak out on 
these issues, because they are dealing with so many other issues in 
which Turkey is playing a key role or is the key partner. So it is a 
very delicate balance.
    But I do think it's very important for both the European 
governments and the U.S. to continue speaking out against these issues. 
And it's hard, because there's a balance. But I think we need to all 
speak out, and complain, and criticize when there are grave human 
rights violations taking place, and to also point out, I think, that 
it's not in Turkey's interest either to sort of undermine a lot of the 
institutions of democracy, in the way that's been happening. So it's 
not just sort of lip service on behalf of--[laughs]--Western values, 
but it's also in Turkey's best interests, I think, to have a strong, 
stable democracy.
    And just to put it also, I think, in some historical perspective, 
you can see this in some of the Freedom House reports if you look back 
10 years. And under the AKP government, the trajectory at the beginning 
was very positive. And there were improvements in many areas of human 
rights, rule of law, media freedom during the early years of that 
government. And so, just to put it in perspective, it hasn't just been 
a downward trajectory. There was sort of an arc, I would say, of 
improvement, and then, like, slow backsliding, and then now this really 
severe crackdown. But I think it's important to put it all in a longer 
perspective as well.
    Dr. Aslandogan. I'd like to actually recall a view that was part of 
the BBC's latest report on Turkey. That is, I think it's overdue that 
we look at the human rights abuses and polarization--and persecution 
issues in Turkey as not just human rights issues anymore, but we need 
to look at them as helping or harming longer-term interests of the 
world in the region. Because there is now a fight against ISIS and 
other radical groups, al-Nusra in Syria and Iraq, and for that fight 
Turkish collaboration is needed, militarily speaking. And to contain 
the refugees from reaching Europe, Turkish collaboration is needed.
    These are short-term goals where Turkish collaboration is needed, 
but allowing and not severely criticizing and not doing anything about 
the ongoing persecution and human rights abuses is also undermining the 
longer-term goals vis-a-vis these very same issues. That is, is this 
persecution and human rights abuses, is it risking destabilizing 
Turkey? Because all the major fault lines in Turkey are exacerbated by 
the ongoing regime.
    The fault lines between Kurds and Turks, between the seculars and 
the observant Muslim Turks, between pro-hardline and against-hardline 
folks, these fault lines, the tensions are always increasing. And 
there's a serious destabilization and chance of Turkey becoming the 
next recruitment ground. It is already a recruitment ground for ISIS 
and other radical groups. So this is pushing Turkey to become part of a 
much larger problem rather than being part of the solution. So I think 
the world, the U.S., should not look at these issues simply as human 
rights issues anymore.
    Mr. Price. Thank you very much. I think that makes a very important 
point that all of you made, that these issues should not be viewed as 
being raised opportunistically or as some kind of expression of 
American or Western animus towards Turkey, but rather issues of genuine 
concern for Turkish stability and what will guarantee that in a 
sustainable manner going forward, and then also, because that stability 
is so important for so many people in the region.
    I wanted to follow up with one other question, particularly for Dr. 
Aslandogan, because we're talking about rule-of-law issues today. I 
wanted to raise a common accusation concerning the Gulen movement's 
involvement in state institutions. There are many Turkey analysts who 
say that Gulen followers have long been part of the problem plaguing 
state institutions, that their involvement has biased these 
institutions, particularly the judiciary, but many others, and thereby 
undermine them.
    Do you believe that this was a problem that required corrective 
measures?
    Dr. Aslandogan. I think the state of Turkish judiciary independence 
and the proper function of Turkish judiciary should be considered in 
two periods, at least in terms of the recent past, before October 2014 
and after October 2014, because in October 2014 there was an election 
to the higher--[inaudible]--and prosecutors, which decide the various 
appointments, promotions, et cetera, of the members of the judiciary.
    And in this election, a pro-Erdogan group, with the support of 
moderate groups in Turkey, won the elections, and they declared the 
victory. And after that, I think investigators can find a pattern in 
judge appointments or dismissals. When the court verdicts were not in 
line with the government's position, you can see those judges quickly 
being dismissed or moved to other positions. So that election was a 
milestone in terms of the political influence over the judiciary in 
Turkey.
    Now, if you look at the pre-October 2014 judiciary, then Erdogan 
did not declare Hizmet as the enemy number one. There are members or 
sympathizers of the Hizmet movement in every government sector, just as 
there are in the private sector. And the ideas of the Hizmet movement 
are legal and ethical action. So we'd like to believe that those people 
in those positions, they should uphold those ideals, and if any 
individual had not--has not lived up to those ideals, that would be 
against the core values of the Hizmet movement.
    I have seen many reports in the Western media and Turkish media, 
obviously, of the proceedings that took place between 2007 and 2008 up 
until 2013, claims of impropriety or manufacturing evidence. And we 
also have seen the claims of Gulen sympathizers being in those 
institutions. But I have not seen a court case in which a Gulen 
sympathizer, member of the judiciary, was actually found guilty of 
misconduct. If anything, this demonstrated, if they were shown to have 
any vote in such an action, that would be clearly against the core 
values of the Hizmet movement.
    I also want to add this, that in many institutions a counterclaim 
can be made that Hizmet participants have actually held up the 
standards of those institutions for those exact same values.
    Mr. Price. Thank you.
    And I don't mean to confine that question just to Dr. Aslandogan. I 
don't know if, Dr. Danforth, you have anything to add about the role of 
Hizmet in state institutions.
    Dr. Danforth. I think I'd just say that, following up on the 
cyclical nature of the rule-of-law violations that I tried to highlight 
in my initial talks, I think this is one of the chief problems, that as 
a result of the fabricated evidence, the excesses, the politicized 
nature of the proceedings that took place in 2008-2009 against the 
military, an opportunity for actual accountability and actual justice 
about the military's crimes over the past 20 years was missed.
    By the same token, the politicized way, the propagandistic way, 
that the government is going about conducting these purges, conducting 
this witch hunt against the Gulen movement today is also, in the exact 
same way, preventing the Turkish public from ever getting a real, 
honest reckoning of what happened during the previous era when the 
movement was very active in the judiciary.
    Dr. Aslandogan. If I may, just one?
    Mr. Price. Yes.
    Dr. Aslandogan. I'd like to remind observers and followers of 
Turkey abroad that there's simply no comparison between the alleged 
improprieties and violations of rule of law during the 2008 to 2012 
period and the current period. In the current period, we're talking 
about 80,000 people being detained, 37,000, 47,000 people being 
arrested. And these are all--99.9 percent of them are through guilt by 
association. There is no direct linkage between them and any activity 
that is related to coup attempt. So this is guilt by association.
    In addition to these wrongful imprisonments, there is torture. 
There are numerous reports of credible evidence of torture.
    There are private property confiscations. According to AKP 
officials, according to their own statements, the government seized $4 
billion worth of private assets during this period. So, when you look 
at the kind of treatment that people are receiving, they are losing 
their benefits, they aren't able to find jobs, their passports are 
canceled. If you go through the checklist of a genocide according to 
the United Nations, many of those items are actually checked within 
this period. So I simply--without actually judging the previous period, 
I just want to say that there is no comparison at all.
    Dr. Danforth. Could I just add one?
    Mr. Price. Yes, go ahead.
    Dr. Danforth. I mean, perhaps the most discouraging facet of all 
this is that in the 2008-2009 period, the judiciary still felt the need 
to forge evidence. Now the standard of evidence is so low that there's 
hardly any need for it.
    Mr. Price. Interesting. Thank you very much.
    We have a couple of roaming mics that I believe our colleagues Beni 
and Aron will have for folks to ask questions. In the back.
    Mr. Milosch. Hi. My name is Mark. I'm the chief of staff with the 
Helsinki Commission.
    My question would be, if you just fantasized for a moment that you 
could--each of the three panelists, that you get the call to go to 
Trump Tower and meet with the president-elect, Mad Dog Mattis and the 
incoming national security adviser, and they were to tell you something 
briefly like, look, we all see this relationship with Turkey as 
extremely important. We know they want Mr. Gulen returned. They're 
going to be asking for all kinds of other things we don't want to do. 
Very important relationship; lots of very complicated moving pieces 
with Russia. And, none of us three, the president-elect or General 
Mattis or Mr. Kelly, have made their career as human rights advocates. 
And yet they're all--they all grew up on this soil and, as Americans, 
the idea of returning someone like Mr. Gulen to a land where none of 
them believe that he could ever have anything resembling a fair trial, 
it would be repugnant to all of us. And these are the basic outlines of 
the problem that anybody can see.
    What could a Turkey expert tell those three people as they think 
about this equation of the basic lines of our relationship with Turkey, 
the human rights quandaries we're in, the necessity that the United 
States, in order to hold its head high, has to remain the United States 
and doesn't return people to dictatorships where there's no hope of 
them having a fair trial, and yet, there's going to be--and yet there 
are so many almost vital or first-level and second-level American 
interests in play that the questions are serious ones and the answers 
are not easy. What would each of you say from the point of view of your 
expertise?
    Thanks.
    Dr. Danforth. I mean, I think, Mark, you've already made the case 
very well for what we might say. Those are many of the points that I 
would mention as well.
    Specifically on the subject of extradition, I think the important 
thing to understand in that and everything--we've written about this--
as non-lawyers, we still tried to explain as best possible--is that 
there are two components of the extradition process. There has to be a 
political decision on the part of the United States administration, and 
there has to be legal evidence that will be evaluated, in this case by 
a judge in Pennsylvania, who makes the final decision. And so 
separating these two parts of the process, I think, is important.
    Part of the problem is that there's already the suspicion--you 
could even say refusal to believe--in Turkey that the independence of 
the judiciary in the United States is real. The actual fact is that the 
United States could not extradite Fethullah Gulen if a judge in 
Pennsylvania decided not to.
    In the past, there's actually been significant bilateral tension 
between the United States and Britain when Margaret Thatcher wanted the 
Reagan Administration to extradite members of the IRA. The Reagan 
Administration was very eager to comply, but judges blocked that 
process. This is the way the United States system works. This is the 
way the United States system should continue to work.
    And so I think it's important in keeping our rhetoric consistent, 
to make it clear to the Turkish Government to not make promises about 
the United States' ability to bend its own rules, to not suggest that 
this process is more political than it is, to not create the 
expectation that the United States can do favors at the expense of the 
rule of law. And rhetoric that makes it seem like this could happen, is 
either going to prove very damaging to U.S.-Turkish relations if it 
turns out that the administration simply can't, doesn't have the 
evidence to follow through with the extradition, or, even if it does, 
perhaps -if the administration was able to secure Gulen's extradition, 
it would be even more damaging because it would, in a while range of 
other situations, undermine the United States' ability to point to our 
own values as a limitation on our behavior.
    In other situations Turkey has already demanded that, say, the 
German Government prosecute a German comedian who made fun of President 
Erdogan on television. The United States can't give the impression that 
this is something that Turkey can and should be able to ask for.
    Dr. Karlekar. Just to add to that point, I think governments and 
countries where there is no separation of powers and no independent 
judiciary would push for things that they don't realize are not 
possible in the U.S. if we're going to uphold the rule of law and 
systems in place in the U.S. So I think that's a very important point, 
to keep pointing out what the rules are in the U.S.
    And I think even with this particular case, the fact that it's seen 
as such a politicized case makes the standards of evidence so much 
higher, that would have to be presented by the Turkish Government in 
order for an extradition to take place. So if there's any suspicion 
that it's a politicized request or that there definitely would not be a 
fair trial in Turkey, it's going to be even harder to get the U.S. to 
agree.
    So I think to keep pointing out what the actual limitations are in 
the U.S., that there is an independent judiciary, are really quite 
important in this and in any other case where we were being asked to 
extradite somebody.
    But, that being said, on sort of some of the broader issues, I 
mean, I think to try and point to areas of cooperation and the fact 
that these sort of restrictions on free expression, the violations of 
human rights, are really, I don't think, in Turkey's best interest as 
well, and trying to continue to point out that it's not a good path for 
Turkey to go on. It's not going to--as my fellow panelists have pointed 
out, it's only worsening the issues in Turkey already with regard to 
the Kurdish minority, with regard to the sort of clash between more 
secular and religious values. There seem to be improvements in many of 
these areas as of five years ago, and now we're seeing a backsliding 
again. So I think there are connections between the level of human 
rights and free expression in Turkey and Turkey's ability to negotiate 
and deal with some of these issues on a national level.
    Mr. Price. All right, I think we'll take another question.
    Questioner. Thank you. Hi. I'm Albert Wolf. I'm from Congressman 
Chabot's office.
    I'm going to ask you a question about academic freedom in Turkey. I 
think it was about a year ago the International Political Science 
Association tried to basically pull out or stop their conference from 
taking place in Istanbul. You've seen a number of academics either 
being fired or--[inaudible]--they've gone on, quote-unquote, ``extended 
leave.''
    I'm just curious what your take is on the state of academic freedom 
in Turkey. And the second--we haven't really talked about Iraq. I'm 
just curious what your thoughts are on--Erdogan has made a lot of 
hawkish statements on going into Iraq in the event that the Turkmen are 
attacked or they're being slaughtered by the Hashd. I'm just curious 
what your take on all this is.
    Thank you very much.
    Mr. Price. I think, for the Iraq question, we can also focus on how 
that plays into how the United States relates to Turkey on the human 
rights and the rule of law issues, because if we go into Iraq, we'll be 
here all night. [Laughs.] Go ahead.
    Dr. Karlekar. I can jump in on the academic freedom question in 
particular. I mean, similar to other areas of free expression, there's 
been a huge crackdown on academic freedom, particularly since the coup, 
but these trends were apparent beforehand.
    And dozens of scholars, academics, are trying to leave the country. 
Many are in prison. Many more have been dismissed from their positions. 
We work closely with the scholars at Risk Network, which is based in 
the U.S., and which assists scholars at risk around the world and helps 
them in many cases to receive fellowships to come to safety and 
continue their academic work.
    They've actually had to hire extra staff this year to respond to 
the number of cases coming out of Turkey. There have been, I think--
they told me over a hundred cases of people who are reaching out to 
them for help. So they've actually had to hire extra staff this year 
just to deal with the Turkish crackdown. And Turkey actually is 
providing the most cases of any country in the world right now for 
their network. So I would say it's really an unprecedented situation 
that we're seeing on all levels of free expression, but including 
academic freedom.
    Mr. Price. We can talk about Iraq.
    Dr. Danforth. On academic freedom, I might also just follow up to 
say, certainly from my perspective, I've been very attuned to what's 
happening on account of English-speaking university professors that I 
know personally that I'm following on Facebook and am friends with and 
have mutual friends with, and that's been understandably the focus of a 
lot of the international concern and in a way the part of the problem 
that the international community has the easiest tools to remedy, 
because there are people that, as you said, can and should be invited 
to the United States, to Europe, to the extent possible. I'd keep in 
mind that the extent of the problem goes way beyond that and that it's 
elementary school teachers in parts of the country that people have 
never heard of in the United States.
    As for Iraq, I think the bigger concern right now is Syria. I think 
if there's a situation where there's really likely to be a clash that 
would fundamentally put United States interests at risk, it's between 
Turkish forces and Turkish-supported rebels in northern Syria and sort 
of YPG Kurdish forces that are there. And it's the United States that 
has devoted a considerable amount of energy to try to manage that 
conflict and prevent it from exploding. And yet at the same time, the 
longer those efforts have gone on, the more frustration has been built 
up in the Pentagon and the State Department with Americans who are 
dealing with this and that--I think that does run a very real risk now 
that--what was the quote in The Washington Post?--a U.S. official had 
honestly said something like, the Turks are either going to have to 
support our efforts or get out of the way and that if frustration on 
the United States' side gets too high and we stop coordinating with 
Turkey to the extent we have, I think that does dramatically intensify 
the chances that--Turkish forces are already in Syria--instead of 
continuing the fight against ISIS, they'll turn and fight against the 
YPG. And again, that would be a godsend for ISIS.
    Mr. Price. All right. We'll take another question. Anybody else?
    Now I can ask another question as well.
    Dr. Aslandogan. If I may----
    Mr. Price. Yes, go ahead, please.
    Dr. Aslandogan. The community may not be the representation of the 
world academic freedom situation, but part of the government's 
crackdown after the coup attempt was shutting down 15 universities and 
transferring their students to other institutions. And also, in an 
action that I could not understand to this point, they asked 1,500 
deans of all the universities, everybody, to resign from their posts. 
So clearly many of them had nothing to do with the Hizmet movement or 
the coup, but they have taken these actions.
    And right now, as we speak, I know people who have degrees in 
social sciences, technical sciences from American universities, who are 
in jail. In the past some academics published ads in Turkish papers 
condemning the heavy-handed dealing with the southeastern security 
situation vis-a-vis the PKK. And there were legal cases against those 
academics for publishing that ad and for pursuing that advocacy.
    So under these circumstances, I think if it comes to anything 
political concerning government, you can safely say there's no academic 
freedom. I don't know how they deal with other issues that don't have 
to do with the government.
    Mr. Price. And, Alp, if I could also ask you, one of the examples 
of overreach of the Turkish Government that's really struck me has been 
the seizure of private institutions, the seizure of the entire bank 
accounts of different organizations and that sort of thing, and the 
trusteeships that the government has set up to operate media 
organizations and other institutions.
    You mentioned some of it in your presentation, but I was wondering 
if you could give us a little bit more of a sense and the sense that--
other panelists can also comment on it--what mechanisms does the 
government use, what justification does it invoke in taking those 
measures.
    Dr. Aslandogan. I'm not familiar with all the mechanisms that they 
use. I'm familiar with two of them. But let me start by saying that 
this kind of targeting private property has never happened in Turkish 
history. The Kurdish citizens in the past suffered greatly under 
repressive measures, but never--I don't remember a time when hundreds 
and hundreds of Kurdish business holders lost their private property. 
The government has done nothing like this. Even after military coups, 
something like this didn't occur.
    So there's no precedent for the seizure of private property at this 
level in Turkish history. And according to the government officials 
themselves, it's reached about $4 billion.
    One of those 15 universities that was shut down was Ipek 
University, which was established by a holding owner of Ipek, who had 
to leave the country. And hundreds of millions of dollars in companies 
under his holding company were seized by the government. And so he's 
seeking his legal rights outside of Turkey. This is an unprecedented 
situation.
    So the mechanisms that they use, the ones that I'm familiar with, 
one of them is the one that you mentioned, the trusteeship. The 
trusteeship--a court, allegedly independently, decides that a company 
is in trouble or their owners in some sort of wrongdoing, and therefore 
they place this company under a trustee, who is, again, supposed to be 
independent. And then this trustee acts like a CEO, and then they 
decide hiring and firing. They decide what other companies this company 
does business with. And in all the examples where they used this 
trustee mechanism, it resulted in basically the original owners losing 
all control of the company, and sometimes the companies also sank very 
quickly.
    In some cases, they used this mechanism against media institutions. 
For instance, this businessman--one of his papers and TV stations were 
acquired this way. And since they changed the direction from being 
against Erdogan to pro-Erdogan overnight, they lost all readership and 
they are no longer feasible economically. They sank very quickly.
    Another mechanism is under this state of emergency if somebody is 
charged with being a member of a terrorist organization, then one of 
the measures they can take is actually to put their assets under 
government control. And I'm sure our lawyer friends would give you 
three or four other mechanisms.
    And when these issues are brought up, the government response is, 
these are legal methods; they're not political. But when you actually 
look at who is doing what, what is the end result, what does it lead 
to, there's a very clear picture that these legal issues are being used 
for political purposes, as a political punishment instrument.
    Mr. Price. Thank you.
    I wanted to ask, are there any other questions?
    [Pause.]
    I wanted to ask Dr. Karlekar as well--I don't have a full idea for 
the landscape of the media in Turkey, but in your assessment, are there 
still independent organs that are out there that are getting the word 
out about things that counter the government's narrative? Do they still 
exist, or with seizure of many journalists, with Cumhuriyet and that 
sort of thing, is that kind of no longer in existence?
    Dr. Karlekar. I would say there had been sort of a slow squeezing 
of the media space in Turkey over the last few years. Even before the 
July coup, the number of independent balance voices was quite small. 
There were several opposition papers but several also very pro-
government. But having sort of papers with the balance of independence 
was particularly squeezed, and the same was in the broadcast media.
    What we have seen in Turkey over the last few years, though, is 
large numbers of columnists and regular journalists who have been fired 
or dismissed from their jobs following changes in media ownership at 
some of the main outlets. So basically with many papers, even sort of 
those independent voices were being pushed out.
    On the positive side, what we did see is that many of those 
journalists have sort of taken up with online outlets and sort of 
Internet-based platforms and digital media and are using social media 
too to get the word out.
    So I would say there has been a sort of positive development in 
terms of more platforms being set up in the digital space. Now, 
obviously those may or may not have the same reach of their basic 
newspaper, but we have seen that journalists are really continuing to 
try do their jobs and to get the word out and to provide independent 
news and information.
    For example, the outlet P24 has been set up by a number of 
journalists who were laid off from their official positions. So that 
has, I think, been somewhat of a counterbalance, but not enough to 
completely counter the large-scale sort of change in the media 
environment and the closure of independent media.
    Mr. Price. Sure.
    Dr. Aslandogan. I think the best term to describe the state of 
Turkish journalism is to say it's in a coma. It is not completely dead; 
it's in a coma.
    There's a simple exercise that everybody here can do. Simply go to 
those sites which publish the front pages of Turkish newspapers. There 
are some gathering sites that publish only the front pages of Turkish 
newspapers. And just count those papers, in how many of them you can 
actually find a paper that's critical of the government. Out of the 30 
or 50, if you find five of them, congratulations.
    The level of control is about 95 percent or higher. The notable 
exception to this is the Sozcu daily, which is a kind of nationalist-
leftist--Kemalist nationalist paper, which is allowed to continue to 
publish in high numbers, in hundreds of thousands. And I see two 
possible reasons for allowing that to continue its critical 
publication: one, for the government to be able to say, see, we have 
independent media; we don't control all of them. So they can point on 
to this one publication.
    Secondly, Sozcu is also highly critical of this Hizmet movement, so 
maybe because they're also criticizing Hizmet, they're allowing it to 
continue to publish. But if you take any measure of independence of the 
media, Turkish media is in a coma right now.
    Mr. Price. Are there any other questions?
    Oh, sure. Do we have a mic?
    Mr. Tiersky. Thank you. Alex Tiersky, also with the Helsinki 
Commission.
    The speakers today have been extremely eloquent in pointing out 
some of the problems that we're seeing in Turkey today. What I would 
like now to point more of a finger at is what hope there is for a 
change of course.
    As power becomes more centralized, as the media becomes 
increasingly under the control of the government, independent outlets 
being shuttered, I still haven't heard essentially scope for a change 
in outlook, necessarily. I don't want to say change in leadership; 
that's not what I'm asking. We haven't necessarily seen a great 
responsiveness to criticism from the outside, which I think has been 
something that you've all insisted is a necessary part of the response.
    So if that's not going to create change, criticism from the 
outside, where might that change come from in terms of the trends that 
we're seeing?
    Thank you.
    Dr. Danforth. Yes, I think probably the reason you haven't heard 
more about that is because no one on the panel seems terribly 
optimistic on those points.
    The only thing I would say--so far the Turkish Government's been 
very clear about justifying all the steps that it has taken with 
majoritarian if not necessarily liberal view of democracy. And 
President Erdogan keeps coming back to the fact that he and his party 
continue to win elections. And so far those have all been, if not 
entirely free elections, by and large elections in which the results, 
the numbers reflect the way people vote, with perhaps some 
inconsistencies.
    What that means, I think, is that there's still--there'd be some 
hope or maybe the only hope would be that it really did reach a point 
where the government could no longer want to hold elections that it 
could actually win, there might be some sense--I mean, so much of the 
rhetoric has been based on democracy that there would be some sense 
that once it moved from a kind of majoritarian liberal democracy to an 
actual authoritarian state that was no longer holding elections, that 
was no longer holding fair elections, that there might be some more 
widespread popular backlash at that point. But I wouldn't necessarily 
hold my breath for that either.
    Dr. Karlekar. Yes, I would echo that. I've been pretty 
pessimistic--[chuckles]--about the chances for change right now. I 
think it might take maybe a lot of these restrictions affecting a broad 
-they already are facing a broad--or affecting a broad majority--or a 
group of people, but I think if they started affecting even more 
people, and/or if, let's say, sort of economic conditions, or there 
were other issues which were leading to more popular unrest, then there 
might be some pushback, either at the ballot box through elections or 
in some other way.
    But I think you would need sort of a change from the bottom in 
terms of support for the Erdogan government. At this point, I mean, 
they are winning elections, and they do have a large amount of support.
    So my--[chuckles]--my prognosis is not very optimistic at this 
point, no, of any positive changes soon.
    Mr. Price. Could I ask specifically, to follow up on Alex's 
question, about the Kurdish situation and whether or not there is an 
endgame envisioned there? I think fighting one's way to victory against 
the Kurds seems to come across dubious prospects. Is there a potential 
avenue to a return to negotiations once certain objectives have been 
reached? And that also has a lot of implications for human rights and 
the situation there, considering--also the political repression that 
Kurdish MPs have faced in Turkey recently.
    Dr. Danforth. No, I think that's an excellent point. Certainly over 
the last 30 or 40 years the Kurdish conflict has been one of the things 
that's consistently undermined democratization efforts in Turkey. And 
as we see, it continues to do so today, but it is discouraging, as you 
allude to. I think both sides now, after this conflict has gone on for 
so long, recognize that some kind of negotiated political solution is 
necessary. At the same time, both are carrying on the conflict in a way 
that makes that kind of political solution even more difficult to 
achieve.
    On the PKK side, the fighting over the last year and a half has 
showed that the organization has no military path to victory against a 
much larger, stronger Turkish military and that were it to try to--it's 
kind of the one escalatory tactic that members of the group have 
alluded to would be carrying out more terrorist attacks in Western 
cities, which would further alienate the vast majority of Turkish 
citizens and undermine whatever legitimacy the organization has 
gathered in the rest of the world through its fight against ISIS.
    By the same token, the Turkish Government's approach to this--to 
even the people who are often defending the Turkish Government are at a 
loss to explain why the current policy is likely to work. In the past, 
the government has argued that there's newfound anger against the PKK 
and that it's using this to win hearts and minds in the Kurdish region, 
which will undermine the group's support further. It's argued that 
because it's given more freedoms, cultural freedoms to the Kurdish 
population, this will give it a better chance to win a political 
victory. And yet, whatever truth there might have been to these 
arguments a year or two ago, the longer the fighting continues, the 
less plausible even those rationales seem.
    Getting back to what I said earlier, and I think one of the best 
things the United States can do, is keep this conflict from expanding 
within Syria and recognize that if now there isn't necessarily much 
hope of both sides returning to the negotiating table, certainly if at 
any point in the future that becomes a real possibility, that this is 
vital to Turkey's stability, vital to U.S. interests in the region, and 
that any political pressure the United States can apply in the future 
towards getting both sides back to the negotiating table is ultimately 
going to be to America, Turkey, and Kurds' benefit.
    Dr. Aslandogan. In the early 2000s, when Hizmet participants were 
supporting the AKP's efforts to move Turkey toward the EU, its 
candidacy for membership, we now realize retrospectively we were 
dreaming, because a country and a society don't become democratic 
overnight in such a short period. This is a country and society, they 
grew up with an educational system praising and admiring strongly 
this--glorifying the state, just being happy with authoritarian 
measures, authoritarian means, and also overall valuing economic well 
being above many other things. So we were dreaming. We only realize it 
after 2011 elections.
    So a country that is now going to the authoritarian path, can it 
return back to a democratic path? That's a big question. And 
unfortunately, the hope lies in very negative or undesirable 
developments to all the means through which the current government was 
able to maintain the power is the control of the media and also the 
lack of an economic crisis. There is no chance that in the near future 
the control of the media will be eased. So if the only other 
possibility is that if the economy is not in the shape that it's in 
today, more people will begin to question the legitimacy of other 
actions of the government, it could lead to a legitimate removal of the 
government in an election, if the election's actually fair. Elections 
have been free, but it's hard to argue that they have been fair with 
the media being controlled by the government. So there's that 
possibility, if the economy is not doing as well, that more people may 
begin to question the government's actions, or there could be popular 
backlash. But none of those possibilities are desirable. One just 
wishes that it could simply turn the democratic switch on the 
government. That doesn't look likely.
    Mr. Price. I wanted to just piggyback off what you said and then 
asking for your comment on something else that you mentioned, the 
history that Turkey has of praising authoritarian leaders, that there 
are these--obviously you have a history of coup attempts and that sort 
of thing, the overthrow of democratic governments. I've heard this 
argument many times over the years from opponents of the AKP, that it's 
born from a political Islamic root, and that as a result, the 
authoritarianism that it's demonstrated, it was kind of an inevitable 
outcome, that political Islamic movements have this kind of 
inclination, in that you give it long enough and it eventually bears 
itself out. I think that perspective is somewhat challenged by what Dr. 
Karlekar shared in terms of how there was an uptick, there was an 
improvement, there was this move towards the EU, there were--kind of an 
opening of Turkey following the election of the AKP for several years.
    So I'm wondering if we zoom out from the perspective of just these 
past few years and everything that's happened, if we look at the 
broader trajectory of Turkish politics, is there something about the 
political Islamic genealogy of the AKP that made this all inevitable in 
the end and that we should have known better from the beginning, as 
some would argue? Or is there something more elemental that transcends 
ideology just about Turkish institutions and how power's wielded in 
Turkey? [Laughter.]
    Dr. Danforth. I think from the moment Erdogan came to power, there 
were those that were very outspoken in their criticism of him, not 
because of any concern about his democratic credentials or rather much 
more out of concern about the fact that he was an Islamist. The kind of 
long history of Islamophobic criticism of the Erdogan government, the 
AKP, I think has helped undermine a lot of what could have been more 
useful criticism of Erdogan. And it could be based on democratic 
grounds.
    I think now there's an unfortunate situation where--well, that the 
risk would be that moving forward, a continued focus on the kind of--
Erdogan's Islamism, the focus on Islam's foreign policy, his neo-
Ottoman dreams, a lot of the stuff that we hear rhetorically a great 
deal in Washington, again, is going to only further undermine and 
delegitimatize whatever leverage, whatever credibility the United 
States has speaking out on what should be universal values. To the 
extent this becomes an Islam vs. anti-Islam thing, U.S. criticism is 
not going to play well in a 99-point whatever percent Islamic country.
    Mr. Price. Go ahead.
    Dr. Aslandogan. I think we need to distinguish the various 
definitions of political Islamism and to what degree Erdogan's 
government subscribes to it. When they formed the party and when they 
were coming to power, they were claiming that they were simply 
conservatives, not even Muslim democrats, just conservatives, and the 
early years were consistent with that promise. But after the second 
election, all the progress, democratic progress stalled, and after the 
third election things began to U-turn.
    Is it because of the ideology, or is it because of the individuals 
who are involved in the party, President Erdogan and others around him? 
There were some more reasonable people at the formation of the party. 
Later they left. One of them actually said that I cannot recognize the 
party leadership right now. It is a former, I think, high school friend 
of Erdogan. He said I don't recognize people around Erdogan anymore. I 
don't recognize this party anymore.
    So something happened along those lines. But I think we need to 
kind of separate those concerns. There is inherently definitely a 
tension between the ideology of political Islamism and governing a 
state that has a budget of about trillion dollars. These people are 
making decisions about billion-dollar contracts, on bids, so the 
temptation for corruption, and corruption ultimately leading to having 
to make a choice between authoritarianism or allowing democracy under 
rule of law to continue. All of those elements should be considered, I 
think, in trying to analyze this.
    Mr. Price. Thank you very much. I think that's a very interesting 
and nuanced take on the AKP and its history in Turkey.
    If there aren't any other questions and no final thoughts from our 
panelists, I'd like to thank everybody for coming out. I think these 
interventions from our panelists have given us a lot to think about, 
particularly about considering how United States foreign policy should 
continue to stick to its principles on human rights, whether it's human 
rights issues that we can raise bilaterally with the Turks and 
multilaterally in the OSCE with the Turks, and also on the extradition 
question that these things are in Turkey's interest, they're in the 
interest of U.S. foreign policy to establish expectations and to 
maintain norms. I think those are very interesting takeaways for us to 
ponder as we think about U.S. foreign policy going forward, especially 
in the new administration and the new Congress.
    I'd like to thank also our interns who worked very hard on this 
event--Beni, Aron, and Jordan, who may be watching back from the 
office. Thank you all for your participation.
    And, with that, we will adjourn the briefing.
    [Whereupon, at 3:20 p.m., the briefing ended.]
    
    

                              A P P E N D I X

    =======================================================================




    Thank you, Everett, and thank you to Rep. Chris Smith and the 
Helsinki Commission for the opportunity to speak to you today about 
what has quickly become a human rights crisis in my native country, 
Turkey.
    As Everett mentioned, I'm Alp Aslandogan, the executive director of 
the Alliance for Shared Values. We are an umbrella organization for six 
regional US institutions that promote peace, interfaith dialogue and 
mutual respect. These are among the core values of the social movement 
Hizmet, which means ``service'' in Turkish, and which originated in 
Turkey. It is also known as the Gulen movement in popular media, after 
Mr. Fethullah Gulen, a Turkish religious scholar and social advocate.
    All of you surely are familiar with the horrific July 15 coup 
attempt. It was an attack on Turkey's democracy. And it was immediately 
and repeatedly condemned by my organization as well as by Mr. Gulen 
himself.
    That has not stopped the Turkish Government from blaming the coup 
attempt on Mr. Gulen, although they have been unable to provide any 
evidence that he was involved in any aspect of it.
    But today's briefing is not about the events of July 15, it's about 
what has happened in the aftermath of those events. Unfortunately, the 
attack on Turkey's democracy and human rights did not end when the dust 
settled on the morning of July 16.
    Turkish President Recep Tayyip Erdogan and his government have 
systematically concentrated their power over the courts, the media, the 
government bureaucracy, the military and law enforcement through a 
series of purges and persecutions of innocent people and government 
critics alike. They have seized assets from everyday Turks who have 
built businesses and lives through years of hard work.
    While Hizmet has been a main target of the Turkish Government since 
July, we have not been alone--Kurds, Alevis, journalists, teachers, 
even soccer referees have all been targets of Erdogan's massive 
crackdown.
    As of December 4, more than 115,000 people have been fired from 
their jobs, 80,000 people detained, 40,000 people arrested, 6,000 
academics who lost their jobs, 4,000 judges and prosecutors dismissed, 
2,000 dormitories shut down, 195 media outlets shut down and 145 
journalists arrested. 35 hospitals have been shut down or transferred 
to new owners and 7000 doctors have been fired. I have yet to hear an 
intelligent explanation as to how doctors and hospitals were involved 
in a coup attempt. Nine Kurdish members of the Turkish parliament were 
arrested in November. The attack has been waged on every segment of 
society that does not march in lockstep with the Erdogan government.
    We have identified 12 different categories of human rights 
violations that the Turkish Government has inflicted on Turks of all 
stripes under a declared ``state of emergency.'' I will walk you 
through them and provide some examples that show how deeply harmful 
they are to Turkey's present and future.
    The first category is Inhumane Detention Conditions and Torture. 
Groups such as Amnesty International and Human Rights Watch have 
reported that those being detained are subjected to physical abuse 
including beatings, rape, and various forms of torture, and are being 
denied food and water, adequate space, and medicine. For example, our 
office received report of an individual who was deprived of water and 
was forced to drink from a toilet bowl. As a result, he developed an 
infection. We also received reports of an individual in detention who 
was threatened with the rape of his wife if he did not cooperate, an 
individual whose wife was raped and told his husband that he could 
divorce her. Journalist Aysenur Parildak sent a letter from prison to 
Cumhuriyet daily reporting that during her interrogation that took 8 
days, she has been subjected to violence and sexual abuse by drunk 
police officers. BBC recently aired an on-camera testimony of an 
individual who was subjected to rape by inserting a police baton into 
his body. Other specific examples of torture are documented in an 
October 24 report from Human Rights Watch entitled ``A Blank Check: 
Turkey's Post-coup Suspension of Safeguards against Torture''.
    Human rights violations such as Verbal and Physical Abuse, the 
second category, are by no means limited to detention centers, and they 
continue outside prior to and post-detention. There are children in 
Turkey undergoing psychological therapy due to police raids to their 
home by officers carrying guns, verbally and physically abusing their 
parents.
    The third category is the Violation of Freedom of Expression. 
Turkish authorities have waged an all-out attack upon independent 
media. In addition to closing media organizations or seizing them and 
transferring them to friends and family of the Erdogan regime, the 
government has arrested many journalists simply for doing their jobs - 
uncovering and publishing hard truths. Among them is a 72-year-old 
veteran woman journalist and parliamentarian, Nazli Ilicak, who has 
been charged with ``membership of a terror group.'' She is a Turkish 
liberal, not affiliated with the Hizmet movement or any other group, 
and she has devoted her life to journalism, not terrorism. Even foreign 
journalists are not immune. Beatriz Yuberco, a Spanish student and 
journalist, was deported from Turkey over tweets about President 
Erdogan. During her detention, she was deprived of food and water, 
denied medical care and the right to contact her family and lawyers.
    The fourth category is the Violation of Right to Travel. The 
Turkish Government has cancelled countless passports to prevent 
ordinary citizens from leaving the country. The passport of Dilek 
Dundar, wife of the journalist Can Dundar, was confiscated at the 
Ataturk Airport even though she was not charged with a crime. Her 
husband is a secular journalist who had been jailed, had been the 
target of an assassination attempt, and now is in exile in Germany. A 
Hizmet-sympathizer family attempted to travel to Cuba to seek an 
unconventional treatment for their son as he was suffering from a 
terminal form of cancer. The family was denied exit from the country. 
The parents begged the officials to allow their son to travel to Cuba 
with another relative so he can be treated, but the officials refused 
them.
    The fifth category is Denial of Lawful Employment.  As part of the 
purge, Turkish Government employees have been fired without any 
investigation, and they are denied positions in any other government 
agency. Private companies offering employment to them are monitored and 
threatened. The professional licenses of 21,000 teachers and other 
professionals have been canceled. School diplomas of professionals who 
graduated from Hizmet-affiliated schools have been invalidated.
    The sixth category is Defamation, Humiliation and Slander. As 
President Erdogan seized control over the Turkish media either through 
acquisitions of pro-Erdogan businessmen or through self-censorship, 
media smear campaigns against foundations, companies and individuals 
have been the norm. An example of this phenomenon was the targeting of 
the singer SILA for refusing to perform at a pro-government rally. 
Despite having no connections with Hizmet, she was targeted with a 
slander campaign and consequently lost performance contracts. Another 
example is the silence of AKP officials in public rallies where puppets 
representing Mr. Gulen were hanged and burned, signs called Gulen ``Dog 
of Zionizm'' in English and ``Abu Jahl'' in Arabic, the polytheist 
arch-enemy of Prophet Muhammad (peace be upon him) clearly targeting 
audiences outside of Turkey.
    The seventh category of human rights violation is Denial of Right 
to Due Process. The requirements of the due process according to 
Turkish legal code have been repeatedly violated during the prosecution 
of Hizmet sympathizers. The state of emergency and the associated 
``Directives with the force of law'' are often cited to justify denial 
of legal rights such as attorney-client privilege. The October report 
by Human Rights Watch has details on this issue.
    The eighth category is the Denial of Right to Legal Defense. 
Lawyers accepting to defend Hizmet-sympathizers are routinely 
threatened, detained and arrested, and their offices raided. Any 
lawyers who do agree to defend Hizmet sympathizers--and only a few will 
take those cases--are charging exorbitant sums. What is more 
frightening is that according to the reports that we received, these 
lawyers are not asking for these fees for themselves but are 
transferring a large proportion of the fees to AKP officials as an 
exorbitant commission.
    The ninth category is the Violation of Private Property Rights. 
Private properties of Hizmet-sympathizers are taken away through 
multiple mechanisms such as appointing trustees, confiscation, and sale 
to third parties without the consent of the owner. The owners of the 
largest furniture manufacturing company, which used to employ more than 
36,000 people, were jailed. The owner of a media and mining holding 
company had to flee the country, and his companies worth hundreds of 
millions of dollars were brought under government control. The 
university that he helped start was shut down.
    The tenth category is the Violation of Family. The family members 
of wanted individuals, including wives, mothers and fathers are 
detained and sometimes arrested. Children are threatened. Parents are 
threatened with placing their children in government child-care 
agencies despite the presence of relatives. As an example, the wife of 
journalist Bulent Korucu was arrested by police when they could not 
find him at home at the time of their raid. The 86-year old mother of a 
lawyer was also detained by authorities.
    The eleventh category is the Violation of Right to Shelter: 
Apartment building governing boards throughout Turkey are pressured to 
evict Hizmet sympathizers. People are encouraged to report their 
neighbors to authorities. The president's office established a hotline 
for neighbors to report alleged Hizmet sympathizers. Apparently the 
goal is to render dissenters not only voiceless but also homeless.
    The twelfth category of human rights violation is the Violation of 
Right to Information. Family members of those detained or arrested have 
been denied information about the whereabouts and conditions of their 
loved ones.
    These are a dozen different categories of human rights violations 
we have seen reported in the press, by human rights watchdogs, and 
learned through anecdotal stories from those facing these repressions 
personally in Turkey.
    By all means, the coup perpetrators must be brought to justice. 
They committed a horrible, horrible act. But the way the Erdogan 
government has reacted goes above and beyond the measures called for by 
law, by what is expected of a NATO ally, and by standards of common 
human decency.
    I ask that each of you use the leverage you have with Members of 
Congress and with the incoming administration to keep pressure on the 
Turkish Government to stop this unending parade of abuses of innocent 
people, and to lift the state of emergency that is being used as an 
excuse to deny basic human rights.
    Thank you for your time, and I look forward to your questions.
 



  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
